<html>
<title> - HEZBOLLAH'S GROWING THREAT AGAINST U.S. NATIONAL SECURITY INTERESTS IN THE MIDDLE EAST</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   HEZBOLLAH'S GROWING THREAT AGAINST
                  U.S. NATIONAL SECURITY INTERESTS IN
                            THE MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2016

                               __________

                           Serial No. 114-163

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                __________
                                
                                
                          U.S. GOVERNMENT PUBLISHING OFFICE
99-555PDF                         WASHINGTON : 2016                          
                                 
________________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>  
                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Matthew Levitt, Ph.D., director and Fromer-Wexler fellow, Stein 
  Program on Counterterrorism and Intelligence, Washington 
  Institute for Near East Policy.................................     6
Mr. Tony Badran, research fellow, Foundation for Defense of 
  Democracies....................................................    23
Daniel L. Byman, Ph.D., professor, Security Studies Program, 
  Edmund A. Walsh School of Foreign Service, Georgetown 
  University.....................................................    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Matthew Levitt, Ph.D.: Prepared statement........................     9
Mr. Tony Badran: Prepared statement..............................    25
Daniel L. Byman, Ph.D.: Prepared statement.......................    41

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59

 
                   HEZBOLLAH'S GROWING THREAT AGAINST
                  U.S. NATIONAL SECURITY INTERESTS IN
                            THE MIDDLE EAST

                              ----------                              


                        TUESDAY, MARCH 22, 2016

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute.
    We will then hear from our witnesses and without objection, 
witnesses, your prepared statements will be made a part of the 
record and members may have 5 days in which to insert 
statements and questions for the record subject to the length 
limitations in the rules.
    Before we begin today, I would just like to say, and I'm 
sure that I'm speaking on behalf of all of the members, that we 
condemn in the strongest terms the terrorist attacks in 
Brussels today and our condolences are with those impacted by 
this evil and with all of the people of Brussels.
    We stand ready, willing and able to assist our European 
allies with whatever they need to root out these terrorists and 
hold those responsible accountable.
    I think today's attacks and the subject matter of today's 
hearing only serve to further underscore the need for all of 
us--the U.S., our allies, all--to do more to combat and destroy 
ISIS and other terrorist groups like Hezbollah and it has to 
start with finding a comprehensive plan for Syria that includes 
defeating all the terror groups and seeing Assad removed from 
power.
    We certainly have trying times ahead but I'm confident that 
these terrorists will not change our way of life and that 
freedom and democracy will ultimately triumph over this radical 
extremism and hatred.
    The chair now recognizes herself for 5 minutes. Iran, 
Syria, Lebanon, Israel--the proxy war between Saudi Arabia and 
the Arab states and Iran--these are all some of the top 
priorities for U.S. national security interests in the Middle 
East.
    And one of the common denominators here, one thing at the 
center of all of this, is the U.S.-designated Foreign Terrorist 
Organization--FTO--Hezbollah.
    This Shi'ite Islamist group is an Iran proxy group that is 
known to be one of the world's most dangerous and capable 
terror organizations trained and equipped and funded by Iran's 
Quds Force.
    Hezbollah has been responsible for some of the world's most 
infamous terror attacks including the 1983 U.S. Marine barracks 
bombing in Beirut, the 1994 AMIA Jewish community center in 
Buenos Aires and the bombing of a bus in Bulgaria which 
targeted Israeli citizens.
    But this is just a small fraction of the terror activities 
as Hezbollah is present around the world including an alarming 
presence right here in our own hemisphere where it is involved 
in drug trafficking, smuggling networks and terror operations.
    This U.S.-designated FTO has been responsible for provoking 
war with Israel most recently in the 34-day conflict in 2006 
which saw the militant group launch over 4,000 rockets 
indiscriminately into northern Israel.
    Hezbollah is responsible for destabilizing Lebanon's 
political scene and is growing its influence and presence 
there, much to the detriment of Lebanon and her people.
    Hezbollah was found to be responsible for the assassination 
of the former prime minister in 2005 and, of course, Hezbollah 
has been used by the Iranian regime as ground forces to protect 
the regime's interest in Syria.
    With all of this it is clear that Hezbollah represents a 
growing threat to our national security interests, especially 
in the wake of the sanctions relief that the Iranian Government 
has received as part of this weak and dangerous nuclear 
agreement.
    Hezbollah receives financial and materiel support from Iran 
and now with the regime receiving this financial windfall of 
over $100 billion, it is not only reasonable to expect that 
Iran will increase its support for its proxy, it is as near of 
a guarantee as one can have.
    With the terror group being such a vital arm of Iran's 
foreign policy agenda we would be silly and ignorant to expect 
that it wouldn't use this as an opportunity to strengthen this 
vital extension of its damaging apparatus.
    This is likely one of the major driving forces behind the 
Gulf countries and the Arab League making the decision to 
designate Hezbollah as a terrorist organization.
    This designation, regardless of the motivations, was a step 
in the right direction and we'd like to see more of that from 
our GCC partners in fighting terror groups like Hezbollah and 
that includes doing more to combat terror financing in those 
countries.
    But it is encouraging and we should seek to work with them 
in an effort to cut off Hezbollah's support from Iran and 
eliminate the threat that it poses.
    Saudi Arabia has cut its military assistance to Lebanon in 
part because of Hezbollah's undue influence in Beirut and the 
Lebanese Government. That undue influence led the Lebanese 
justice minister to resign.
    This should be sounding alarm bells for the administration. 
Not only is it allowing Iran and Hezbollah to push us around in 
Syria but it is allowing Iran to grow its influence in Lebanon 
and extend its grasp in the region.
    Now we have Hezbollah on the border with Israel in Lebanon 
and we have Hezbollah in the Golan Heights, and just because it 
is preoccupied with the fight in Syria doesn't mean it has 
turned a blind eye on Israel.
    Make no mistake about it. The cease fire between Israel and 
Hezbollah has nothing to do with Hezbollah not wanting to fight 
Israel. It has everything to do with the terror group 
restocking and building up its missile and rocket stockpile so 
that it can once again launch an all-out attack against the 
Jewish state.
    In fact, with all the chaos going on in Syria right now, it 
has helped Iran and the Assad regime in their efforts to 
smuggle more weapons and more ammunition and more sophisticated 
weapons systems to the terror group and that includes some 
advanced Russian-made weapons systems, which could seriously 
jeopardize Israel's security.
    Anytime we have Russia, Iran and Hezbollah operating in the 
same theater with the same objectives, it cannot be good for 
the security and the stability of the region.
    It is an imminent threat to our friend and ally, the 
democratic Jewish state of Israel, and it is a great threat to 
our national security interests in the region as the proxy war 
between Iran and some of our GCC allies threatens to escalate.
    The Obama administration needs to do more to counter 
Hezbollah and Iran in Syria, which means delivering a 
comprehensive strategy to defeat ISIS and the Assad-Hezbollah-
Iran nexus.
    It needs to do more to take action to combat the weapons 
transfers from Russia to Iran and to Hezbollah in Syria. The 
President needs to use the tools at his disposal to sanction 
Hezbollah and cut off its network, and the President needs to 
realize that foregoing old alliances in the region to 
legitimize relations with and legitimize itself, the Iranian 
regime, is a strategic calamity that will have terrible 
consequences for the region and for our national security 
interests for years to come.
    With that, I'm pleased to recognize the ranking member, my 
friend, Mr. Deutch of Florida.
    Mr. Deutch. Thank you very much, Madame Chairman.
    I'd also like to just take a moment to say that we stand 
with the people of Brussels, the people of Belgium and all 
those who are resolute in battling ISIS and the terrorist 
groups that cowardly launch attacks on innocent civilians.
    It will not win, not in Belgium, not in Turkey, not in Cote 
d'Ivoire, not in Israel, nowhere, and our thoughts and prayers 
go out to the victims--today's victims and to their families.
    Thank you to our witnesses. It's a pleasure to welcome you 
all back to our subcommittee and I thank the chairman for 
convening today's hearing to examining the terrorist 
organization Hezbollah whose dangerous behavior poses a threat 
in nearly every corner of the globe.
    Hezbollah was founded as a resistance group against Israel, 
a group dedicated to the destruction of the state of Israel.
    Today, its activities are broad and they are wide. 
Hezbollah has become Iran's proxy terrorist using Iranian 
dollars to launch attacks around the world just as they use 
Iranian weapons to kill Syrians.
    Hezbollah is responsible for the 1992 Israeli Embassy 
bombing in Argentina which killed 29 people, the 1994 bombing 
of the AMIA Jewish center that killed 85 people. It attacked a 
bus of tourists in Bulgaria in 2012.
    Since 2008, attacks plotted by Hezbollah have been foiled 
in Cyprus, in Azerbaijan, in Georgia and in Turkey. And in 2012 
a Hezbollah plot to assassinate the Ambassador of Saudi Arabia 
right here in Washington was uncovered.
    This attack, had it gone forward, would have resulted in 
the deaths of innocent civilians here in our nation's capital. 
And while Hezbollah has been a designated U.S. Foreign 
Terrorist Organization since 1997, it still operates freely 
around the world as a so-called political group--a political 
group.
    The distinction between Hezbollah's political and military 
wings allows the group to fundraise throughout Europe and Latin 
America.
    The Hezbollah International Financing Prevention Act, which 
I was proud to introduce with Chairman Royce, Ranking Member 
Engel and my friend, Mr. Meadows, has been signed into law and 
would help crack down on Hezbollah's use of the banking system 
as well as its other funding sources from narco-trafficking to 
money laundering.
    Now, today's hearing comes on the heels of two surprising 
announcements--the designation of Hezbollah as a terrorist 
organization by the Gulf Cooperation Council followed by the 
same designation by the Arab League.
    These actions are a clear indication of just how dangerous 
Hezbollah has become as it does Iran's dirty work throughout 
the Middle East.
    Iran has a long history of meddling in neighboring 
countries with hopes of destabilizing governments and inciting 
unrest among Shi'ite populations.
    After the conclusion of the nuclear agreement, there is 
increasing concern about the kind of damage an Iran with access 
to billions of dollars in sanctions relief could do.
    But Hezbollah is not just a threat to Israel and to Arab 
states. This murderous group has a history of attacking 
American citizens and American interests.
    Since its inception in 1982, Hezbollah has attacked 
American citizens in the bombing of the U.S. Embassy in Beirut 
in 1983, killing 63 including 17 Americans, the U.S. Marine 
barracks bombing in October 1983 which killed 241 American and 
58 French servicemen, the bombing of the U.S. Embassy annex in 
Beirut in 1984 which killed 24, the hijacking of TWA 847 in 
1985 in which a Navy diver was shot in the head and his body 
dumped on the Tarmac, and the Khobar Towers attack in Saudi 
Arabia in 1996 that killed 19 U.S. airmen.
    Desperate to hang on to its best friend, Bashar al-Assad, 
Iran dispatched Hezbollah mercenaries to Syria nearly 5 years 
ago. Hezbollah has sustained the regime's grip on power and 
aided in the slaughter of hundreds of thousands of innocent 
Syrians by providing Assad with somewhere between 6,000 and 
8,000 fighters.
    Just this week, Hezbollah leader Hassan Nasrallah vowed 
that his fighters would press on in Syria even as Assad loses 
his support from the Russian air force.
    The conflict in Syria has delivered an influx of new 
weapons into the region, increasing the chances that dangerous 
chemical or advanced precision weapons had fallen into 
Hezbollah's hands.
    Already Hezbollah is reportedly in possession of Russian-
designed surface-to-air shoulder-mounted missile systems and 
with an arsenal of well over 100,000 missiles, which are, 
according to Nasrallah, capable of reaching every corner of 
Israel, it is troubling to imagine these rockets with precision 
capabilities or Hezbollah with a stockpile of chemical weapons 
that could one day be used against Israel.
    The U.S. must lead the efforts to interdict Iranian weapons 
as they make their way to Hezbollah for use in Syria and 
against Israel. We have tremendous cooperation with Israel in 
these efforts but the international community under the mandate 
of U.N. Security Council Resolution 1701, which calls for the 
de-arming of Hezbollah, must step up these efforts.
    The Security Council must do more to ensure that Security 
Council resolutions are implemented. The U.N. peacekeeping 
mission in Lebanon does not have the ability to de-arm 
Hezbollah. There is no enforcement mechanism.
    Hezbollah has a stranglehold on Lebanon, the country is 
paralyzed because Hezbollah essentially functions as a state 
within a state. The political stalemate has persisted for 
nearly 2 years with the government unable to select a 
President.
    Moreover, the Lebanese Armed Forces must be the sole 
security apparatus in the country. I was pleased to see the 
Security Council reaffirm this last week reiterating their 
strong support for the territorial integrity, sovereignty and 
political independence of Lebanon and underscoring the crucial 
role played by the Lebanese Armed Forces and security forces in 
extending and sustaining the authority of the state in 
supporting the country's stability.
    As long as Hezbollah remains in Syria, a threat to Lebanon 
remains. Retaliatory bombings have struck Beirut, the country 
is buckling under the weight of over 1 million refugees and 
Hezbollah is desperate to see its lifeline to Iran preserved.
    This makes a political solution that removes Bashar al-
Assad from power all the more important for regional 
international security. Without Assad, the Hezbollah-Iran nexus 
is inherently weakened.
    Madam Chairman, it is time for the world to call Hezbollah 
what it is--a terrorist organization that murders innocent 
civilians at the behest of Iran.
    I hope today will give us new insight into how we can beat 
Iranian support for Hezbollah and curb the menacing group's 
activities in the Middle East and around the world, and I yield 
back.
    Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And seeing no member request for time, we are so pleased to 
get to our witnesses and I thank the witnesses and the audience 
for their patience, as we had a series of votes.
    We are pleased to welcome back Dr. Matthew Levitt, Director 
of the Stein Program on Counterterrorism and Intelligence for 
the Washington Institute for Near East Policy.
    Previously, Dr. Levitt has served as the Deputy Assistant 
Secretary of Intelligence and Analysis at the U.S. Department 
of the Treasury, a branch chief under the Director of National 
Intelligence and a Counterterrorism Advisor to the State 
Department's Special Envoy to the Middle East. Welcome, Dr. 
Levitt.
    We would also like to welcome back Dr. Tony Badran, a 
research fellow at the Foundation for Defense of Democracies. 
Dr. Badran focuses on Lebanon, Syria and Hezbollah.
    As an expert on U.S. foreign policy toward Syria and 
nonstate actors and terrorist groups, Dr. Badran has--well, I 
made you a doctor, that's not bad--has written extensively--my 
arm hurts, maybe you could take a look at it--extensively in 
Hezbollah.
    And lastly but not least, we would like to welcome back Dr. 
Daniel Byman, who is a professor in the Security Studies 
Program at Georgetown University School of Foreign Service and 
the research director for the Saban Center for the Middle East 
Policy at the Brookings Institution.
    Dr. Byman previously served as a professional staff member 
for the National Commission on Terrorist Attacks on the United 
States and the joint 9/11 inquiry staff of the House and Senate 
Intelligence Committees.
    Thank you, gentlemen. Your prepared remarks will be made a 
part of the record and please feel free to summarize. Dr. 
Levitt, we will begin with you.

STATEMENT OF MATTHEW LEVITT, PH.D., DIRECTOR AND FROMER-WEXLER 
  FELLOW, STEIN PROGRAM ON COUNTERTERRORISM AND INTELLIGENCE, 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Levitt. Thank you very much, Chairman Ros-Lehtinen and 
Ranking Member Deutch, members of the committee.
    It's a pleasure to be here. I, too, would like to just make 
a comment about Brussels. I was in Brussels last week meeting 
with counterterrorism officials including with officials as 
they were planning the first raid last Tuesday.
    But I also had the opportunity while there to talk to them 
about Hezbollah and there is some silver lining here, because 
due to Hezbollah's tremendous investment in international 
organized crime, going up to the highest levels of Hezbollah, 
we now have an opportunity to work with Europeans, even within 
the context of a European Union designation of Hezbollah that 
is partial, just the military and terrorist wings, as if such a 
distinction exists.
    Hezbollah will be the first to tell you it does not, and so 
maybe this is something we should push on again.
    But even where things are, we are seeing tremendous 
cooperation with them on these cases. The fact is that 
Hezbollah has branched out and experienced a regional 
transformation.
    We see the designation by the GCC and Arab League and it's 
because of an increased amount of Hezbollah activity in the 
region, not just the long history of Hezbollah in the Gulf, and 
to be clear, for example, just 2 months after the finalization 
day of JCPOA we had the arrest of Mughassil who was one of the 
masterminds of the Khobar Towers bombing that you both 
mentioned.
    Hezbollah's transformation has, clearly, taken it to Syria. 
It has taken it to Iraq in small numbers. But, for example, the 
Treasury Department designated al-Inmaa Group, a Beirut-based 
engineering company which has been opening up basically fronts 
to finance and support Hezbollah activities, a small footprint 
in Yemen, which is most noticeable for the very high ranking 
Hezbollah operatives that they have sent there.
    When Hezbollah sends a special operations commander like 
Abu Ali Tabatabai to Yemen, that means that Yemen means 
something to them, even if they're not sending large numbers of 
people.
    Hezbollah's global criminal networks are on the increase 
and it's important to note that they rely sometimes on what we 
call these criminal super facilitators who can move and launder 
tremendous amounts of money in and out of Europe, in and out of 
the United States.
    It's important to note that the Department of Justice, the 
U.S. Drug Enforcement Administration, has been targeting a 
whole host of these actors.
    To be clear, we don't actually know what this unit within 
Hezbollah calls itself. But U.S. law enforcement, for lack of a 
better term, came up with a name called the Business Affairs 
Component--the BAC--which to be clear is not operating on 
behalf of Hezbollah's political wing, for its social welfare 
wing, but it is specifically under and providing facilitation 
and finance for the terrorist wing, the Islamic Jihad 
organization, the external security organization, and was 
founded, according to the GOA, by Imad Mughniyah himself before 
he was killed in 2008. That's how far back this organization 
goes.
    In terms of the Western Hemisphere, the BAC has established 
working relationships according to DOJ with South American drug 
cartels that supply cocaine to drug markets in both the U.S. 
and Europe.
    The BAC then launders these drugs through well-known black 
market peso exchange and other vehicles. This has come close to 
the United States as well. One of the most important arrests 
we've made was of an individual who we lured to Atlanta, Imam 
Kubaisi, in October 2015, just 3 weeks after the end of the 60-
day congressional review period for JCPOA. She was arrested in 
Atlanta.
    She was arraigned on money laundering conspiracy charges, 
unlicensed firearms dealing, conspiracy for laundering funds 
she believed to be drug money and for arranging for the sale of 
thousands of firearms including military assault rifles, 
machine guns and sniper rifles to criminal groups in Iran and 
Lebanon, including Hezbollah. She also was trying to procure 
airplane parts for Iran.
    And meanwhile, as associate of hers, Joseph Asmar, was 
arrested in Paris--again, underscoring the tremendous law 
enforcement cooperation we're seeing with key European allies.
    According to the Department of Justice, Kubaisi and Asmar 
explained that they could arrange for places from South 
America--planes, that is, from South America laden with multi-
ton shipments of cocaine to land safely in Africa as a transit 
point before the drugs were smuggled to the United States and 
to Europe.
    DEA recording of the conversation of these two individuals 
with a DEA undercover discussing their money laundering network 
and the services they provided to drug traffickers, terrorist 
organizations and other criminal groups including places--in 
places like Lebanon, Iran, France, Belgium, again, Bulgaria, 
Benin, the DRC, Ghana, Nigeria, Cyprus and, yes, across the 
United States.
    We see Hezbollah not only engaging in facilitation but also 
operational activity, the latest plot to be thwarted in Cyprus 
with Hussein Bassam Abdallah, a dual Lebanese-Canadian citizen 
involved in the stockpiling of over eight tons of ammonia 
nitrate, and according to intelligence officials that was 
intended not just for Cyprus but for further operations in 
Europe.
    The fact is that there are activities here in the Western 
Hemisphere we need to be extremely cognizant of. The most 
recent plot to be thwarted was in Peru. The individual who was 
arrested, Mohamad Amadar, had married a dual Peruvian-American 
citizen who was a resident in Miami.
    But perhaps the most--the thing we need to be most 
concerned about and which perhaps you haven't heard is that the 
person who was the handler for Mohamad Amadar, who met with him 
personally in Turkey, was Salman Al-Redda.
    Salman Al-Redda has been indicted for his role in the 1994 
bombing of the AMIA attacks. He came and went throughout South 
America in the years followed, never arrested, and he has 
become one of the absolute top--perhaps the top three or four 
Islamic jihad organization Hezbollah terrorist wing operatives 
personally in charge of operations in South America, and those 
operations continue.
    My time is over, but I'd like--if you're interested I'm 
happy to tell you about some of the other things that Treasury, 
the State Department and the Department of Justice are doing.
    There's good things happening from the United States 
regarding Hezbollah. But my time is over. I want to thank you 
for having me once more.
    [The prepared statement of Mr. Levitt follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Ms. Ros-Lehtinen. We'll make sure that we ask you that. 
Thank you.
    Mr. Badran.

 STATEMENT OF MR. TONY BADRAN, RESEARCH FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Badran. Thank you, Madam Chair, and thank you, Ranking 
Member Deutch and for the members of the committee for allowing 
me to testify today.
    I'm going to just briefly talk about, as Matt has talked 
about, Hezbollah's global operations. I want to talk 
specifically more about how that relates to their position in 
Lebanon and Syria specifically.
    On the one hand, the Syrian uprising 5 years ago posed a 
significant challenge to Iran and Hezbollah by--as you noted, 
by threatening to sever their bridge to Lebanon and thereby 
denying Hezbollah their strategic depth as well as their 
logistical pipeline.
    Unfortunately, 5 years on the trend is moving in the 
opposite direction. Hezbollah and Iran have secured their core 
interests in Syria, albeit at significant cost.
    They have managed to secure contiguity between Lebanon and 
the regime-controlled areas in western Syria, thereby securing 
the ability to continue to move weapons from Damascus to 
Lebanon.
    A key partner in this effort has been the Lebanese Armed 
Forces. In fact, one of the interesting things to note and 
troubling things to note over the past 5 years has been the 
growing partnership between Hezbollah and the LAF, which has 
allowed Hezbollah to protect its domestic flank when it was 
facing some backlash for its involvement in Syria.
    The partnership between Hezbollah and the LAF, however, is 
not the only point of Hezbollah control and domination of the 
Lebanese state.
    It has placed its members or sympathizers in key government 
positions which like, for instance, the Lebanese customs office 
as well as its financial auditor which allows it all this 
activity that we're hearing about globally to be processed 
domestically with little oversight or backlash.
    In fact, Lebanon has become a critical hub in Hezbollah's 
criminal activities. Hezbollah has made Lebanon complicit both 
financially and economically as well as militarily because of 
all the weapons that it's moving from Syria that it's getting 
from Iran and is storing the majority of it in civilian areas.
    Hezbollah has essentially painted a big target on the back 
of all of Lebanon and this is, unfortunately, has not been 
countered by U.S. policy over the last 5 years.
    What this threatens to do is to--in addition to all these 
strategic weapons that are being moved to Lebanon as well as 
the Hezbollah's entrenchment in Syria and its expansion into 
the Golan along with the IRGC and the building of new 
infrastructure on Syrian soil, it creates a situation for 
Israel that will, I think, accelerate an upcoming future 
conflict which, as the IDF has been saying to anybody who will 
listen for the last few years, is going to be far bloodier than 
anything that we've ever seen on both sides.
    You talked about the 4,000 rockets that they launched in 
the previous war. Now they have the capacity to launch anywhere 
between 1,000 to 1,500 a day.
    So the IDF is very clear that there's going to be a lot of 
dead civilians both in Israel but also in Lebanon. The problem 
also has been that Hezbollah has gained operational expertise 
in Syria, working alongside the Russian military in combined 
weapons operations and in different urban and rural settings. 
So it's actually be able to offset its losses with this 
experience.
    All of this creates a situation on the border of Israel in 
the northern border that now combines the Syrian front as well 
as the Lebanese front and soon to be not just swimming in 
Iranian cash but also potentially soon with an Iranian nuclear 
umbrella. This creates an unacceptable position for Israel.
    But it's not only Israel's security that has been 
challenged by this development. It's also the Arab states and 
we've seen the Saudis leading the charge in this regard in 
designating Hezbollah but also in pulling the $3 billion aid 
that they gave to the Lebanese Armed Forces, citing the fact 
that the Lebanese Armed Forces have become an ``auxiliary'' of 
Hezbollah and I think this is an accurate assessment.
    And although the--there's a tendency on the part of the 
administration at least to kind of pressure the Saudis to go 
back on that decision, I think actually we should stop and take 
and pause and reassess what exactly U.S. materiel support to 
the LAF and intelligence sharing--how that can actually go to 
sustain and help Hezbollah entrench its grip on Lebanon.
    In addition, we should not--because of--the nature of 
Hezbollah's control over Lebanon--think about it in the way 
that the IRGC is in Iran. It's tentacles are everywhere in the 
economy and security apparatus.
    So when pushing for the implementation of H.R. 2297, I 
think we should be very, very clear about not being taken 
hostage by the prospect that this is going to somehow collapse 
Lebanon's economy or the assistance to the LAF is going to 
collapse Lebanon's security, we have to also be cognizant of 
the fact that any nook and cranny and any safe haven that's 
provided in the Lebanese system ultimately is going to benefit 
Hezbollah because of its dominant position in the state, both 
in the security sector as well as in the economic sector.
    So I'll stop right here and I'll be happy to flesh this out 
in the conversation.
    [The prepared statement of Mr. Badran follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, sir.
    Dr. Byman.

   STATEMENT OF DANIEL L. BYMAN, PH.D., PROFESSOR, SECURITY 
  STUDIES PROGRAM, EDMUND A. WALSH SCHOOL OF FOREIGN SERVICE, 
                     GEORGETOWN UNIVERSITY

    Mr. Byman. Madam Chairman, Ranking Member Deutch, members 
of the committee, thank you very much for having me here today.
    Hezbollah is in a time of transition and this is in large 
part because of the Syrian civil war. Hezbollah forces have 
been involved in several of the most important battles in the 
war and they have proven a vital ally to the Syrian regime due 
to their skill and their discipline, which are often much 
greater than those of the Syrian army forces.
    Hezbollah has had to expand the overall size of its 
military wing, and although it was cautious about entering the 
fray, many Lebanese Shi'a now see it as a defender of their 
community.
    They look at the atrocities that the Islamic State is 
perpetrating against their co-religionists and believe that a 
strong Hezbollah is necessary to protect their community.
    We see extreme voices within the Lebanese Sunni community 
including jihadists tied to the Islamic State or al-Nusra, al-
Qaeda's affiliate. They see Hezbollah as the leading or top foe 
they face and they've conducted terrorist attacks on Hezbollah 
targets in Lebanon and Iranian targets there as well.
    Perhaps the biggest negative consequence for Hezbollah 
though has been the collapse of its regional reputation and the 
associated prestige it's had in the Arab world.
    Almost 10 years ago in 2006, Hassan Nasrallah was one of 
the most popular men in the Arab world for Hezbollah's military 
efforts against Israel.
    Today, he's widely hated. Hezbollah's involvement in the 
Syrian civil war has largely made it more cautious about taking 
on Israel. It's taken close to 1,000 causalities and that's a 
huge number for a relative small group, and this is putting a 
strain on the organization.
    In addition, the organization's Lebanese constituents have 
little appetite for yet another confrontation, yet another 
draining conflict.
    This could change, though, for several reasons. One is that 
if there are setbacks in Lebanon or elsewhere the group would 
have an incentive to restore its past reputation, and fighting 
Israel might be one way to do so.
    Also, Israel regularly attacks Hezbollah targets in Syria 
and Lebanon to stop the transfer of advanced weapons, as Tony 
mentioned, and these strikes have at times killed senior 
Hezbollah officials and even a senior Iranian official.
    This has the potential to escalate though, fortunately, we 
haven't seen that happen yet. And finally, Hezbollah is loyal 
to Iran and if there were a collapse in the U.S.-Iran nuclear 
deal or another source of tension, Hezbollah would be seen as 
part of the Iranian response.
    In my judgement, the close relationship between Hezbollah 
and Iran is not likely to change with the U.S.-Iran nuclear 
deal. It is possible that Iran might step up support to 
Hezbollah, taking advantage of the sanctions relief. But at the 
same time we must recognize that Iran is diplomatically over 
stretched.
    It's deploying considerable forces in Syria to prop up the 
Assad regime. It maintains a large and clandestine force in 
Iraq and it's even established limited ties to the Houthis in 
Yemen. These are considerable financial commitments.
    You couple that at home with the collapse in oil prices and 
add to that decades of economic mismanagement and this has all 
come at the same time when ordinary Iranians are expecting an 
increase in economic prosperity due to the deal.
    So those sanctions relief will put more money into Iran's 
coffers. Iran has many, many demands on these scarce funds and 
in my judgement the level of support for Hezbollah is not 
likely to change significantly barring a significant change in 
the regional situation.
    For the United States we face a dilemma. Washington, of 
course, doesn't want Hezbollah's influence to grow. But at the 
same time, Hezbollah is one of the most formidable foes of the 
Islamic State and it is fighting the group effectively in 
Syria.
    A standard recommendation is to build up the Lebanese Armed 
Forces and to otherwise strengthen the Lebanese state to help 
it counter Hezbollah and I've argued that for quite some time.
    For the most part, though, I think we need to recognize 
that U.S. efforts to do this have failed. In part, this is 
linked to some general problems with U.S. training programs. 
But the bigger problem is that Lebanese leaders don't want to 
exacerbate tension with Hezbollah right now and as a result 
they're hesitant to go for any efforts to try to push them in 
that direction.
    Part of this is due to fear but Lebanon's situation right 
now is quite precarious and the country is, I would say, on 
edge because of the neighboring unrest in Syria.
    The million plus Syrian refugees in Lebanon are a potential 
destabilizing force and I think U.S. aid for the refugees in 
Lebanon is vital.
    We really don't need another failed state in the Middle 
East and Lebanon, unfortunately, is a fairly strong candidate 
to be the next one should things get worse.
    And finally, as the United States steps up its intervention 
in Syria and Iraq, continues its efforts to fight Hezbollah, 
coordination with Israel is going to be essential.
    The two countries work well together on this and we need to 
redouble cooperation to make the most of everything.
    Thank you very much.
    [The prepared statement of Mr. Byman follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much to all of you. I'll 
start the questions. When the Lebanese justice minister 
resigned he stated that Hezbollah's undue influence was ruining 
Lebanon's relations with Arab nations.
    Saudi cut its military aid to Lebanon. Hezbollah still 
wields considerable clout in the Lebanese Government. How can 
the U.S. ensure that Iran and Hezbollah do not gain even more 
influence in Lebanon and given Hezbollah's relationship with 
the Lebanese Armed Forces should the United States reassess the 
President's budget request for $105 million in foreign military 
financing for Lebanon? Dr. Levitt.
    Mr. Levitt. I think one of the significant steps that U.S. 
agencies have taken recently is an effort to take the financial 
fight to Beirut where Hezbollah until recently has been banking 
with impunity.
    The Treasury Department has been targeting designations 
that go right back to the heart of Beirut and we know that 
that's having an impact because Hassan Nasrallah is telling us 
so.
    So in several of his last speeches including in particular 
in December in that speech he used I think 23 out of 55 minutes 
to deny that Hezbollah has any businesses whatsoever which, of 
course, it does. They're just not listed as Hezbollah, 
Incorporated.
    Now, armed with the Hezbollah International Financing 
Prevention Act, U.S. agencies are really truly empowered to, in 
the administration's words, thwart the group's network at every 
turn by imposing sanctions on financial institutions that deal 
with Hezbollah or key elements.
    Tony hit the nail on the head. The ability of Hezbollah to 
use Beirut as the core, as the hub of its literally 
international organized criminal activities threatens Lebanon's 
financial system, which is the backbone of its economy.
    We can help Lebanon protect that financial system, not 
undermine it--to the contrary protect it, and when you speak to 
Lebanese officials who are outside of Hezbollah they beg for 
that assistance.
    Mr. Badran. I would just add just a couple of points. 
First, more broadly, we have to understand--I mean, it's hard 
to say this but we have to understand that there is a big level 
of complicity, unfortunately, with Hezbollah's criminal acts.
    So corruption is widespread and it has affected every 
corner of the Lebanese economy down to the micro level. Think 
of Florida with the cartels, right, and the drug money that 
went through. It corrupts and it infiltrates segments--banks 
and other parts of the economy.
    It's a similar situation, unfortunately, and they have key 
positions and they're very keen on guarding these key positions 
that enable them to do this in the government. I mentioned the 
customs office, financial auditor, general security, et cetera, 
et cetera.
    So dealing with Lebanon as though there's a separation 
between Lebanon and Hezbollah becomes increasingly difficult. 
So we cannot have kid gloves sort of when we're dealing with 
this situation.
    The Lebanese have to be placed--you know, facing a tough 
choice or else this is going to continue indefinitely. With the 
LAF, similar things. Why--the Saudi recognition that ultimately 
the LAF is acting as an auxiliary as opposed to sort of a 
challenge to Hezbollah has made them reach the conclusion we 
cannot continue to fund this uncritically. There has to be an 
assessment as to how to separate operationally Hezbollah from 
the LAF and also to put the LAF in front of its own 
responsibilities in safeguarding the United Nations' Security 
Council Resolution 1701 or simply in the way it's rounding up 
Sunni young men and just putting them in jail and exacerbating 
tensions in the country when they're supposed to be a national 
institution.
    So just a couple of thoughts. I think that an assessment is 
certainly due in this case.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Byman. One concern I have is that by the Saudi 
withdrawal of aid if the U.S. were to reduce support for the 
Lebanese Armed Forces that the winner would be Hezbollah--that 
these institutions and Saudi funding that goes to various 
places in Lebanon have tremendous flaws--overwhelming flaws. 
But they're better than the alternative, which is an unfettered 
Hezbollah.
    And so I would agree strongly that assessing this regularly 
is necessary but we should encourage the Saudis to resume their 
aid.
    We want countervailing forces to Hezbollah in Lebanon and I 
think U.S. ties to Lebanese Armed Forces are also necessary 
even though we need to recognize that the Lebanese army is 
going to be limited and that's a very polite way of saying that 
they're not going to be able to accomplish what we want.
    Ms. Ros-Lehtinen. Thank you. And my last question is 
Russia's role. Hezbollah may have advanced Russian weapon 
systems. Iran is believed to have transferred some of these to 
Hezbollah.
    Russia is also working with Iran and Hezbollah to support 
the Assad regime in Syria and protect its own interests. What 
can you tell us about the Russian-Hezbollah relationship and 
what that might mean for the U.S. and for Israel?
    Mr. Levitt. If you want to be polite there's just a de 
facto relationship between Russia and Hezbollah in their 
cooperative support together with Iran for the Assad regime.
    I'd argue it's much more than that. You effectively have 
Russian air cover for the entire pro-Assad axis which very much 
includes Hezbollah, as Dan mentioned.
    But it goes much farther than that. It's not just the 
obvious things we can see when we're paying attention to the 
news and to what Russia is doing in the region, and while they 
may have removed some assets from the region they haven't 
removed as many as they said they had and Putin himself has 
been quite blunt to the fact that they can put them back very 
quickly.
    I'm no less concerned about some of the illicit procurement 
efforts that I alluded to earlier in Europe in particular that 
are happening including in places like the former Soviet Union.
    Consider the case of Ali Fayyad who, at our request, was 
arrested by the Czechs, a dual Lebanese-Ukrainian citizen who 
was procuring all kinds of former Soviet Union arms for 
Hezbollah.
    Hezbollah took notice because Ali Fayyad is important to 
them and they kidnapped five people in Lebanon and eventually 
those people were released. Ali Fayyad was released.
    We still have fingers into this investigation because Ali 
Fayyad was arrested together with two Ivorians, dual Lebanese 
Ivorian citizens who are still in custody in the Czech 
Republic, and while it remains to be seen if anything will 
really happen with it, last week the Lebanese Government 
announced that they are actually intending to prosecute Ali 
Fayyad, who was sent from the Czech Republic back to Lebanon on 
arms procurement weapons trafficking charges, not mentioning 
the T word, terrorism, the H word, Hezbollah, of course.
    But this would be a step forward in demonstrating there 
might be some elements of the Lebanese Government with which we 
can partner with more than others.
    Mr. Badran. I mentioned earlier the Israeli concern 
regarding Hezbollah operational experience by working side to 
side with the Russians in Syrian.
    Because they have gained experience in combined arms 
operations and working with new weapons systems that the 
Russians introduced to the Syrian theater Russian trainers that 
are working with the Syrian military and Hezbollah sitting 
there and watching they have also with the Iranians started a 
joint operations room in Iraq last year to exchange 
intelligence.
    So we hear about the Russian communication with the 
Israelis on one hand to deconflict in Syria but there's also a 
parallel sort of relationship that the Russians are maintaining 
with the Iranians who are really the ground troops of the 
Russian air force in Syria.
    So the Russians, you know, when they're providing close air 
support in Aleppo it's--none of the IRGC and Hezbollah were on 
the ground checking around.
    Now, if this situation transfers--the fear was that this 
situation would transfer to the south of Syria in the Golan. 
Now, thankfully, it hasn't happened yet. Maybe it will not 
happen. Maybe the Russians will balance out their relationship 
with the Israelis and that with the Iranians.
    But nevertheless it's a risk that should the Russians say 
we are going to combat terrorist groups in southern Syria near 
Jordan, near Israel, who are going to be the ground troops for 
such an operation? It's going to be the IRGC and Hezbollah.
    So, clearly, the coast is not yet clear for Israel. For 
now, the Russian announcement that they're going to kind of 
freeze their operations for a while or reorient them elsewhere 
it doesn't seem to include the south of Syria yet. But it's by 
no means, I don't think, sort of gone--should be stricken out 
of our calculation that something like that is going to happen 
in the future.
    Mr. Byman. I'll only briefly add that I'm very skeptical 
about the degree to which Russia is going to cease its 
operations. I think there will be still considerable support 
and the number of assets that have been redeployed so far have 
been quite limited.
    I will also add, however, that Russia has a visceral 
distrust and dislike of anything that smacks of Islamic 
extremism and the Russians are if anything pragmatic but at the 
same time they see that broader community as quite hostile and 
they are quite concerned.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madame Chairman.
    Dr. Byman, you had said--you described Nasrallah's current 
position as one who's widely hated. You also pointed out that 
Hezbollah is a formidable foe of Islamic State.
    Do those two things--is it likely that because they are a 
formidable foe of ISIS that that will have some impact on the 
way Nasrallah is viewed?
    How do those interrelate and on the ground, more broadly, 
how does the population view Hezbollah, given the role they've 
played in fighting ISIS?
    Mr. Byman. For most people in the Middle East the primary 
fight is not between the Islamic State and the United States 
but rather between the Syrian regime and what we would call the 
moderate opposition.
    It's not a term I love because it means 100 different 
things. But that said, Hezbollah has been an arm of the Syrian 
regime, killing its own people including a range of groups 
supported by the United States which whom we have, I think, 
reasonable relations and Hezbollah is widely hated in the Sunni 
Arab world because it is seen as on the side of an oppressive 
minority regime that has killed several hundred thousand of its 
own people. It's a staggering number.
    Hezbollah's operations against the Islamic State for most 
people in the region are a footnote to this, right, where some 
would say that's bad, some would say that's good. But they 
would focus on their killing of people they regard as much more 
mainstream and much more heroic figures and much more 
representative.
    So that, to me, is the primary reason for its unpopularity 
and that's, to me, why so many Arab states that are backing the 
moderate opposition are against Hezbollah is they see it really 
as an enemy and a tool of Iran.
    Mr. Deutch. And does--the decision by GCC and the Arab 
League to designate Hezbollah a terrorist organization what's 
the impact of that in the region and do you expect another--are 
there retaliatory attacks to come from the designation? What 
happens next?
    Mr. Byman. I think at this point the designation is really 
a reflection of the political reality on the ground rather than 
a major shift.
    These states have been tremendously against Hezbollah for a 
while. The designation helps, though, right. It enables us to 
garner diplomatic support. A number of things that Matt has 
mentioned, for example, are helped diplomatically by being able 
to point to a GCC or an Arab League designation to kind of push 
along agendas we want.
    So I think it's a relatively small impact but nevertheless 
symbolic of a bigger shift.
    Mr. Deutch. And does the failure--I'll throw this open to 
anyone on the panel--does the failure on the part of Europe to 
designate Hezbollah--I mean, what does it actually mean?
    What are they able to do from a fund-raising standpoint? 
What are they able to do from an operational standpoint that 
could potentially be stopped if Europe actually does the right 
thing and designates them a terrorist organization?
    Dr. Levitt.
    Mr. Levitt. Yes. Everything. Right now for an EU 
designation of Hezbollah you have to make a definitive link to 
the terrorist and military wing.
    But Hezbollah's no fool. In fact, they're quite good at 
layering and obfuscation. So they engage in all kinds of 
activities. They just don't put a Hezbollah shingle out there.
    The only case we've had since the designation was not an EU 
action but a German action against the Orphan Welfare 
Foundation, which was a Hamas front organization and was caught 
making the mistake of openly providing some of its donations to 
the Martyrs Foundation, which can be tied, though some 
Europeans would even disagree with this, directly to militancy.
    So designation wise, the EU can't really do very much. It 
does provide an umbrella so that if member states want to do 
something they can say well, Hezbollah is at least partially 
designated--if you can find that they're doing arms 
procurement, arms procurement, for example, is by definition 
probably not for social welfare or political activity. So you 
can feel more comfortable doing that.
    I would argue they should feel comfortable doing it anyway 
since it's black and white criminal activity. Quietly on law 
enforcement issues we've seen great cooperation. But the 
designation as such doesn't actually empower them to do a whole 
lot.
    Mr. Deutch. But what would the full designation empower 
them to do?
    Mr. Levitt. If they found someone or something that was 
doing anything for Hezbollah and all you'd have to prove was 
Hezbollah that entity could be designated.
    Mr. Deutch. And what would that mean to----
    Mr. Levitt. Asset freezes, travel bans.
    Mr. Deutch. Right. And in terms of--in terms of impacting 
their operations, what would the impact be?
    Mr. Levitt. Given the huge increase in Hezbollah operations 
in Europe including a whole bunch of entities that we have 
designated, that the DOJ has indicted there's very good reason 
to think that a designation in the EU would empower European 
nations to target those activities in Europe.
    Let me put it to you another way. Since the July 2013 
partial designation of Hezbollah, Hezbollah activities in 
Europe have increased. I'm writing a study on it right now.
    So that suggests that maybe Hezbollah has kind of called 
that bluff and by activities I don't only mean fund raising, 
logistics and procurement but operations as well as evidenced 
from the--not just the first Cyprus operation which was 
predesignation but the second one with over eight tons of 
explosive materiel which we believe was going to be sent 
farther into Europe.
    Mr. Deutch. And Mr. Badran--last question, Madam Chairman.
    Is there any--can you foresee anything that would prompt or 
what would--that would prompt the Europeans to take the 
necessary step, given what Dr. Levitt just laid out, to make 
this a full designation?
    Mr. Badran. I remain a little--I mean, Matt has expressed 
more optimism and I hope--and he would know, certainly, better 
than me on this--I hope it actually goes in this direction.
    But one of the things, for instance, let's take what the 
GCC has done, right, and let's actually help them enforce it 
and provide also reassurances for these very vulnerable nations 
that the United States will stand with them as they push 
against any Iranian and Hezbollah retaliation.
    But one of the things, for instance, that they're looking 
to do and that could be transferred into the European context 
just as easily because it's not just front organizations that 
are involved here.
    The Saudis leaked, when they made their decision--the 
Saudis leaked through the Lebanese media that one of the things 
they might consider is actually going after not just Shi'ite 
businessmen that may have ties to Hezbollah's financial 
operations but also Christian businessmen who have interests in 
the Gulf states and those are a lot and they're big interests, 
including--they even went so far as to leak that this includes 
sitting ministers in the Lebanese cabinet, okay--that they're 
willing to go that far I think they waved it as a threat.
    We should encourage them to follow through on all of this 
because there's a huge amount, especially in the United Arab 
Emirates, of financial interests for people who are on the face 
of it legitimate businessmen, both Shi'ite and Christian and 
Sunni even. In Kuwait especially there are Sunni Kuwaiti 
businessmen especially with tremendous ties to Hezbollah's 
financial empire.
    This is an opportunity to take to squeeze and then to 
transfer the same template to the Europeans if they're willing 
to go along with it.
    Mr. Deutch. Thank you very much. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch.
    Mr. Boyle of Pennsylvania.
    Mr. Boyle. Thank you. I just have a few questions. When I 
was in Israel last August--well, actually, a few years ago and 
then again last August, folks I talked to including Israeli 
generals talked--they said not if there's a third Lebanon war 
but when there's a third Lebanon war, and that really struck 
me.
    So my question was about the rockets because there's been 
quite a change even since I was there 7 months ago. The Israeli 
military that was briefing us had used the figure about 85,000 
rockets. Then it was revised upwards after that to 100,000 and 
now I read upwards of 150,000.
    So I guess two questions. First, where exactly do things 
stand now in terms of the amount of rockets and their 
sophistication. As I recall from 2006, the rockets that they 
had were not exactly precise.
    So that's the number one, and then number two is what is 
our best intelligence that would be the event to trigger a 
third Lebanon war?
    So I decided to ask all my questions at once and then leave 
it to each of you to figure it out which ones you'll want to 
take.
    Mr. Levitt. Thanks for those questions.
    I don't know any Israeli security or military official who 
doesn't talk that way, not because they're looking to invite a 
third Lebanon war but because you don't stockpile--the numbers 
I hear are 130,000 to 150,000 rockets--to keep them as 
paperweights.
    I don't think that they want to initiate. I had an 
opportunity to speak to a senior Israeli official this week. He 
said, we will not initiate but we will not allow Nasrallah to 
threaten the entire country, as he puts it, not just the north 
with all of these weapons.
    And what we're dealing with now are more sophisticated 
weapons than we saw in 2006, both an increase in the number of 
actual guided systems and also maybe even more significantly 
because not all rockets are equal and the majority of their 
arsenal is not this longer--medium and longer range guided 
missiles but the GPS kits that they are reportedly getting from 
Iran which you can put on something like which they had in the 
past and you can make a dumb rocket smarter.
    They're trying to cope with a situation where hundreds of 
rockets are fired at specific buildings in Tel Aviv and one can 
understand why they won't tolerate that type of a situation and 
as Tony said why they've made it very clear from a deterrent 
perspective that if it happens their response will be much more 
severe than it has been in the past.
    Mr. Badran. So Matt covered the issue of the long range 
rockets that they've upgraded them--they're now precision 
guided. They're no longer dumb rockets. Now they can hit 
strategic installations.
    They've added also the Russian-made anti-ship--the cruise 
missile. Now, those are very, very dangerous. They can hit 
strategic installations offshore, installation gas rigs, et 
cetera.
    So the Israelis have now taken this in such that it's part 
of their doctrine, that they're emphasizing defense of the 
interior, which is a departure from what it used to be in the 
past. It used to be much more offensive minded.
    Now they take into consideration that the population is 
going to have to suffer and there's going to be prioritization 
as to what has to be guarded by the Iron Dome missile defense 
system because of the high density of the weapons--of the 
rockets that Hezbollah can fire on a daily basis, basically 
about 1,000 a day.
    Now, not all of these are long range--okay, a lot of them 
are actually the shorter range. But there's 1 million other 
issues now.
    All of this stuff that they're learning in Syria is going 
to be translated kinetically in the next war in maybe offensive 
operations into the Galilee because now they're on the Golan 
Heights, not just in Lebanon.
    So you ask what would trigger such a war. See, this is 
where the failure of U.S. policy in Syria becomes something 
about much more than just Syria.
    The Israelis are now warning that any solution to the 
Syrian crisis cannot leave Iran in a position of dominance in 
Syria and in a position on the Golan Heights.
    Unfortunately, the United States--the U.S. President has 
said that any solution in Syria has to take into consideration 
respecting Iranian equities in Syria. So you can see where now 
our policy in Syria and Israel's position in Syria are directly 
at odds.
    Any position, any movement in the Golan, any movement of 
rockets or strategic weapons across the border into Lebanon has 
the potential for triggering such a conflict and the more they 
entrench themselves in Syria the shorter this time period 
becomes of when Israel--of how long Israel can tolerate this 
buildup before having to take action.
    So the situation in Syria, I think, is critical to the 
security. Of course, I mean, it affects Turkey, it affects 
Jordan just the same, but very critical as far as Israeli 
security is concerned.
    Mr. Boyle. My time has expired so I thank the chair and the 
ranking member.
    Ms. Ros-Lehtinen. Thank you so much.
    And Dr. Levitt, you wanted to say something and you had run 
out of time. So this is a great opportunity right now. Grab it.
    Mr. Levitt. Thank you so much.
    I don't want to take much time because I've actually 
managed to sneak most of it in.
    But I did want to just add just as an example of some of 
the things that are being done creatively and some of the 
European cooperation we're getting, under the Counterterrorism 
Partnership Fund, the State Department together with DOJ and 
others have been able to put together a series--an 
international initiative to raise awareness about Iran and 
Hezbollah's broad range of terrorist and criminal activities 
around the world, engaging with partners around the world, not 
only informing them and teaching them but then teaching them 
how to use tools at their disposal and we're seeing actual 
cases come out of these including, for example, the U.S. co-led 
law enforcement coordination group, which we co-lead with 
EUROPOL, getting EUROPOL to focus on Hezbollah activities.
    There are EUROPOL cases now. This is not a small 
achievement. Clearly, there is much, much more to be done but I 
see an interest in the part of Europeans because of Hezbollah's 
increased activities there, because of Hezbollah's regional 
growth and in particular in Syria and figuring out what they 
can do within their system, within their designation partial 
regime to work with us on this target.
    Ms. Ros-Lehtinen. Thank you.
    And gentlemen, are there any parting thoughts that you 
would like to leave us with? Mr. Deutch?
    Mr. Deutch. No, thank you, ma'am.
    Ms. Ros-Lehtinen. Well, thank you very much. This 
subcommittee is very concerned about doing everything that we 
can to cut off the funding to this terrorist organization.
    We're going to keep on in that track. Thank you. And with 
that, the subcommittee is adjourned. Thank you to everyone.
    [Whereupon, at 4:44 p.m., the subcommittee was adjourned.]

                                  
                                  

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
